Department of Health and Human Services

                        OFFICE OF 

                   INSPECTOR GENERAL 





                   UNIT OF MEASURE 

  INCONSISTENCIES IN THE 

MEDICAID PRESCRIPTION DRUG 

         PROGRAM





                                                             Daniel R. Levinson

                                                              Inspector General 


                                                                               November 2007

 OEI-05-07-00050    U N I T O F M E A S U R E I N C O N S I S T E N C I E S I NOEI-05-07-00050

                                                                               THE MEDICAID PRESCRIPTION DRUG PROGRAM   i
                    Office of Inspector General 

                                             http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.


  OEI-05-07-00050     UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   i
Δ   E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  (1) To estimate the amount of inappropriate Medicaid rebate claims
                      caused by unit of measure inconsistencies.

                  (2) To determine how often States convert their Medicaid utilization
                      data to correct for unit of measure inconsistencies.


                  BACKGROUND
                  The Medicaid prescription drug program has two elements:
                  reimbursements and rebates. State Medicaid agencies reimburse retail
                  pharmacies for prescription drugs dispensed to Medicaid beneficiaries.
                  Afterwards, State Medicaid agencies receive statutorily defined rebates
                  from manufacturers for each unit of a drug for which they reimbursed
                  pharmacies.

                  Although reimbursements and rebates are both elements of Medicaid’s
                  prescription drug program, each uses a different unit of measure
                  standard. Medicaid reimbursements are based on the National Council
                  for Prescription Drug Programs’ (NCPDP) unit of measure standards.
                  Medicaid rebates are based on the Centers for Medicare & Medicaid
                  Services’ (CMS) unit of measure standards.

                  In general, pharmacies request reimbursement from States based on
                  NCPDP units, while States claim Medicaid rebates from manufacturers
                  using CMS units. Therefore, States must convert utilization data from
                  NCPDP units to CMS units before requesting rebates from
                  manufacturers.
                  To determine how many drugs reimbursed by State Medicaid agencies
                  have unit of measure inconsistencies, we compared NCPDP and CMS
                  units of measure for drugs reimbursed by State Medicaid agencies
                  during the first two quarters of 2006. To estimate the amount of
                  Medicaid rebates inappropriately claimed, we subtracted the Medicaid
                  rebates that States should have claimed, if they converted all utilization
                  data, from the rebates that States actually claimed. To determine how
                  often States convert their Medicaid utilization data to correct for unit of
                  measure inconsistencies, we determined whether States reported
                  utilization data in CMS units.




OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   i
E X E C U T I V E                   S U     M M A R Y 




                   FINDINGS
                   Unit of measure inconsistencies resulted in an estimated
                   $11.8 million in inappropriately claimed Medicaid rebates during the
                   first 6 months of 2006. During the first two quarters of 2006, States
                   inappropriately overclaimed an estimated $8.1 million and
                   underclaimed an estimated $3.7 million in Medicaid rebates, for a total
                   of $11.8 million inappropriately claimed rebates. Inappropriately
                   claimed rebates can lead to incorrect Medicaid rebate payments or
                   disputes with manufacturers.
                   Most unit of measure inconsistencies involve the unit type “each.”
                   Of 213 drugs identified with unit of measure inconsistencies, 193 have
                   the NCPDP or CMS unit type “each.” The NCPDP and CMS have
                   different guidance regarding the unit type “each.” For some product
                   types, CMS guidance is not as specific as NCPDP guidance. For other
                   product types, CMS and NCPDP guidance are in conflict.
                   On average, States convert less than half of their utilization data for
                   drugs with unit of measure inconsistencies. We estimate that, on
                   average, States converted utilization data for 45 percent of drugs with
                   unit of measure inconsistencies. States convert a greater percentage of
                   utilization data for drugs with larger dollar value discrepancies between
                   rebate claims.
                   States cannot efficiently detect or correct for unit of measure
                   inconsistencies. Because NCPDP and CMS package sizes are not
                   always comparable, States cannot efficiently use package size
                   comparisons to identify unit of measure inconsistencies. Additionally,
                   incomplete guidance hinders States’ ability to convert unit of measure
                   inconsistencies. Further, inaccurate reporting of the CMS package size
                   by manufacturers may result in States incorrectly converting for unit of
                   measure inconsistencies.


                   RECOMMENDATIONS
                   To reduce the potential for inappropriately claimed Medicaid rebates
                   because of unit of measure inconsistencies, we make the following
                   recommendations:
                   CMS should provide more specific guidance to manufacturers
                   regarding the unit type “each.”
                   Specifically, CMS could provide more detailed guidance for unit types
                   where its standards are not as specific as NCPDP standards.

 OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   ii
E X E C U T I V E                   S U     M M A R Y


                   Additionally, CMS could provide further clarification for unit types
                   where its standards are in conflict with NCPDP standards. Further,
                   CMS could provide manufacturers with a detailed framework or
                   analytic process to help them determine whether a drug should be an
                   “each” or a different unit type.
                   CMS should improve its guidance to States regarding detecting and
                   converting unit of measure inconsistencies.
                   Specifically, CMS could advise States about how to appropriately use
                   CMS package size data to identify drugs with unit of measure
                   inconsistencies and how to correctly convert utilization data. CMS
                   could also encourage States to make systems enhancements to better
                   detect and correct for unit of measure inconsistencies. Additionally,
                   CMS could maintain a list of drugs with unit of measure inconsistencies
                   on its Dispute Resolution Program Web site.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS disagreed with both recommendations. CMS does not believe
                   (1) that unit of measure inconsistencies account for significant improper
                   Medicaid rebate payments and (2) that the issue warrants further
                   action beyond its current approach.

                   We recognize that inappropriate Medicaid rebate claims caused by unit
                   of measure inconsistencies represent less than 1 percent of total rebate
                   claims. However, as our analysis of NCPDP and CMS data shows, unit
                   of measure inconsistencies remain a problem within the Medicaid
                   prescription drug program with an estimated $11.8 million in
                   inappropriately claimed Medicaid rebates during a 6-month period.
                   Further, the effects of unit of measure inconsistencies may grow as
                   average manufacturer price data are increasingly used for Medicaid
                   reimbursement.

                   We support the efforts already undertaken by CMS to prevent and
                   correct for unit of measure inconsistencies. CMS has issued guidance to
                   manufacturers and States regarding the issue. However, we maintain
                   that CMS should implement the recommendations to assist
                   manufacturers and States in resolving remaining unit of measure
                   inconsistencies.




 OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   iii
Δ   T A B L E                       O F        C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                             States inappropriately claimed $11.8 million in Medicaid
                             rebates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                             Most inconsistencies involve the unit type “each” . . . . . . . . . . . . . 10 


                             States convert less than half of their utilization data . . . . . . . . . . 13 


                             States cannot efficiently detect inconsistencies . . . . . . . . . . . . . . . 14 



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                             Agency Comments and Office of Inspector General Response . . . 18 



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                             A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                             B: Detailed Examples Regarding Utilization Data Conversion . . 25 


                             C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 





OEI-05-07-00050         UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM                       iv
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  (1) To estimate the amount of inappropriate Medicaid rebate claims
                      caused by unit of measure inconsistencies.

                  (2) To determine how often States convert their Medicaid utilization
                      data to correct for unit of measure inconsistencies.


                  BACKGROUND
                  Medicaid is a jointly funded Federal and State health insurance
                  program for low-income and medically needy persons. Individual States
                  establish eligibility requirements, benefit packages, and payment rates
                  for their Medicaid programs under broad Federal standards
                  administered by the Centers for Medicare & Medicaid Services (CMS).
                  All State Medicaid programs have elected to include prescription drug
                  coverage.
                  Medicaid Prescription Drug Payments
                  The Medicaid prescription drug program has two elements:
                  reimbursements and rebates. State Medicaid agencies reimburse retail
                  pharmacies for prescription drugs dispensed to Medicaid beneficiaries.
                  Afterwards, State Medicaid agencies receive statutorily defined rebates
                  from manufacturers for each unit of drug for which they reimburse
                  pharmacies.
                  Medicaid Reimbursement. CMS sets maximum drug reimbursement
                  limits to ensure that the Federal Government acts as a prudent buyer.1
                  Within these Federal parameters, each State determines its own
                  pharmacy reimbursement formula.

                  For certain multiple source drugs with sufficient numbers of equivalent
                  products, CMS sets specific Federal upper limit amounts. As of
                  January 1, 2007, any drug with at least two therapeutically equivalent
                  versions is included in the Federal upper limit list.2 Additionally,
                  Federal upper limit amounts are now based on 250 percent of the lowest
                  reported average manufacturer price (AMP).3



                  1 “Federal Upper Limits Overview.” Available online at 

                  http://www.cms.hhs.gov/FederalUpperLimits/. Accessed on August 9, 2007. 

                  2 Section 6001(a)(1)(B) of the Deficit Reduction Act. 

                  3 Section 6001(a)(2) of the Deficit Reduction Act. 





OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   1
I N T R O D        U C T          I O N


                    For a drug without a Federal upper limit, State Medicaid
                    reimbursements do not exceed the lower of (1) its estimated acquisition
                    cost (EAC) plus a dispensing fee or (2) the provider’s usual and
                    customary charge to the public for the drug.4 Although CMS does not
                    stipulate a method for calculating the EAC, States typically calculate
                    the EAC based upon either the wholesaler acquisition cost (WAC) plus a
                    markup percentage or average wholesale price (AWP) less a discount
                    percentage. Both the WAC and the AWP are suggested list prices that
                    are not necessarily based on actual sales.
                    Medicaid Rebates. The Omnibus Budget Reconciliation Act of 1990
                    created the Medicaid drug rebate program, which mandates that for a
                    drug to be eligible for Medicaid reimbursement its manufacturer must
                    enter into rebate agreements with the Secretary of the Department of
                    Health and Human Services and pay quarterly rebates to State
                    Medicaid agencies.5
                    The Medicaid unit rebate amount (URA) is the amount a manufacturer
                    pays a State for each unit of a drug for which the State reimbursed
                    pharmacies. The formula used to calculate the URA depends on
                    whether the drug is a brand name or generic. The URA for brand name
                    drugs is the greater of 15.1 percent of the AMP or the difference
                    between the AMP and the Best Price (BP).6 For generic drugs, the URA
                    is 11 percent of the AMP. The AMP is the average price paid by
                    wholesalers for products distributed to the retail class of trade. The BP
                    is the lowest price available from the manufacturer to any purchaser
                    (other than those excluded by law).7
                    Every quarter, CMS calculates the URA for each drug using AMP and
                    BP data from manufacturers and provides the URA to State Medicaid
                    agencies. To determine the total rebates due from manufacturers, a
                    State multiplies the URA by the total number of units reimbursed by
                    the State during the quarter. States send utilization data to



                    4 42 CFR § 447.331(b). On July 17, 2007, CMS issued a final rule (with an effective date of 

                    October 1, 2007) that removes 42 CFR § 447.331 but includes the substance of that section 

                    in a new section designated as 42 CFR § 447.512. 72 Fed. Reg. 39412, 39154. 

                    5 § 1927 of the Social Security Act (Act). 

                    6 This summary is not meant to capture the full complexity of the Federal Medicaid rebate 

                    formula for brand name drugs, which includes an additional calculation using an inflation 

                    factor. 

                    7 § 1927(c)(1)(C)(i) of the Act. 





 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM          2
I N T R O D             U C T            I O N


                           manufacturers to claim rebates and to CMS for oversight. Figure 1,
                           below, illustrates the Medicaid prescription drug payment system.


      Figure 1. Medicaid Prescription Drug Payment System

                        Pharmacy sends claim to State for                                      State sends manufacturer
                           prescriptions dispensed to                                          quarterly utilization data to
                             Medicaid beneficiaries                                            claim Medicaid rebates




                                  State reimburses             STATE                  Manufacturer pays
        PHARMACY                     pharmacy                 MEDICAID                State a quarterly
                     Pharmacy                                 AGENCY                  rebate for each unit
                     dispenses                                                        of drug reimbursed
                     prescriptions to
                     Medicaid                   State sends
                                                  quarterly                    CMS sends
                     beneficiaries                                             calculated
                                           utilization data
                                               to CMS for                      URA to States
                                                  oversight                                          MANUFACTURER



         MEDICAID                                                                   Manufacturer sends quarterly
        BENFICIARIES                                                                pricing data to CMS for the
                                                                 CMS                calculation of URA

    Source: Office of Inspector General, 2007.


                           If a manufacturer disagrees with a State’s rebate claim, a manufacturer
                           may dispute the rebate claim. A manufacturer may withhold payment
                           for units in dispute. In 1994, CMS established the Dispute Resolution
                           Program to address the problem of unpaid and disputed rebates.8 As
                           part of the program, CMS provides States and manufacturers with
                           written guidance to prevent the most common disputes.
                           Unit of Measure Standards
                           How units are defined determines the number of units in a package, or
                           package size. The unit of measure and package size are used together
                           to calculate the per unit reimbursement and per unit rebate amounts
                           used for Medicaid prescription drug payments. Although


                           8 CMS, “Background of the Dispute Resolution Program.” Available online at
                           http://www.cms.hhs.gov/MedicaidDrugRebateDispR/downloads/drpbkgrnd.pdf. Accessed on
                           July 19, 2007.



 OEI-05-07-00050           UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM                   3
I N T R O D        U C T          I O N


                    reimbursements and rebates are both elements of Medicaid’s
                    prescription drug payment system, each uses a different unit of measure
                    standard.
                    Retail Standards. In 1993, the National Council for Prescription Drug
                    Programs (NCPDP) developed unit of measure standards to facilitate
                    uniform billing units in all retail transactions. According to NCPDP’s
                    “Billing Unit Standards,” there are three possible unit types for which
                    all drugs may be defined: each, milliliter, and gram.9 Because Medicaid
                    reimburses retail pharmacies for prescription drugs dispensed to
                    beneficiaries, Medicaid bases reimbursements on NCPDP unit of
                    measure standards.
                    CMS Standards. CMS developed unit of measure standards for use in
                    the Medicaid drug rebate program. Because AMP and URA are
                    calculated for the Medicaid drug rebate program, both are defined using
                    CMS unit standards. CMS’s “Medicaid Drug Rebate Operational Guide”
                    lists eight unit types: each, capsule, tablet, suppository, milliliter,
                    antihemophilic, transdermal patch, and gram. In 1993, CMS agreed to
                    align its standards with NCPDP standards when defining unit of
                    measure for the Medicaid drug rebate program, with exceptions for
                    specific packaging and dosage reasons.10
                    Using Retail and CMS Standards. Although NCPDP and CMS unit of
                    measure standards serve their unique purposes, if used together, the
                    inconsistencies between the two standards have potential financial
                    implications for Medicaid reimbursements and rebates.

                    In general, pharmacies request reimbursement from States based on
                    NCPDP units. But for States to claim the appropriate Medicaid rebate,
                    States must use the CMS unit of measure to determine their utilization
                    to report to manufacturers and CMS. For drugs with different unit of
                    measure standards, States must convert their utilization data from
                    NCPDP units to CMS units before requesting rebates from
                    manufacturers. CMS’s “Dispute Resolution Program Best Practices”



                    9 National Council for Prescription Drug Programs, “Basic Guide to Standards.” Available
                    online at http://www.ncpdp.org/PDF/Basic_guide_to_standards.pdf. Accessed on April 26,
                    2007.
                    10 “Medicaid Drug Rebate Program Bulletin for Participating Drug Manufacturers,” Release
                    Number 8. Available online at
                    http://www.cms.hhs.gov/MedicaidDrugRebateProgram/03_DrugMfrReleases.asp. Accessed on
                    August 3, 2007.



 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM          4
I N T R O D                  U C T            I O N


                               instructs States to ensure that utilization data are reported to
                               manufacturers and CMS using the CMS unit of measure standard.11
                               Figure 2 provides theoretical examples of a State using NCPDP and
                               CMS unit of measure standards in the Medicaid prescription drug
                               program. In the first example, the State converts its utilization data to
                               claim the appropriate number of Medicaid rebates. In the second
                               example, the State does not convert its utilization data and underclaims
                               Medicaid rebates.

   Figure 2. Using NCPDP and CMS Unit of Measure Standards
                      Reimbursement                                                         Rebates
                               AIS
               NCPDP Unit of Measure Standard                                     CMS Unit of Measure Standard
                           Each                                                            Milliliter

 Example 1: State converts utilization data to CMS unit of measure

                                                 State                               State correctly claims
 Pharmacy dispenses                           reimburses                             15 rebates (e.g., 1 rebate
      3 vials, each                          pharmacy for                            for each milliliter
    reconstituted to                            3 each                               dispensed)
   5 milliliters, for a
 total of 15 milliliters
                            PHARMACY                  STATE MEDICAID AGENCY                                 MANUFACTURER
                                                        State Converts Utilization Data
                                                            3 each = 15 milliliters


  Example 2: State does not convert utilization data to CMS unit of measure



                                                 State
  Pharmacy dispenses                          reimburses
       3 vials, each                         pharmacy for                           State inappropriately
     reconstituted to                           3 each                              claims 3 rebates
    5 milliliters, for a
  total of 15 milliliters
                            PHARMACY                                                                        MANUFACTURER
                                                       STATEMEDICAID
                                                      STATE MEDICID AGENCY
                                                                     AGENCY
                                                          StateMEDICAID
                                                       STATE    Does Not Convert
                                                                            AGENCY
                                                              Utilization Data


Source: Office of Inspector General, 2007.




                               11 “Dispute Resolution Best Practices.” Available online at
                               http://www.cms.hhs.gov/MedicaidDrugRebateDispR/03_DRPBestPractices.asp#TopOfPage. Accessed
                               on August 2, 2007.



   OEI-05-07-00050             UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM            5
I N T R O D        U C T          I O N


                    Changes to Medicaid Prescription Drug Payments
                    Over the last decade, the Office of Inspector General (OIG) has issued a
                    series of reports that highlighted the deficiencies of using AWP and
                    WAC as a basis for Medicaid’s reimbursement amounts because of their
                    disconnect from actual sales prices. These findings were presented
                    during testimony before the Senate Committee on Finance.12 Based in
                    part on this work, the Deficit Reduction Act of 2005 (DRA) made a
                    number of changes in how Medicaid drugs are reimbursed.13 The DRA
                    made the AMP available to the States. The AMP data provide States
                    with a new source of pricing data for their reimbursement formulas.
                    The DRA also mandated the use of AMP in the reimbursement formula
                    for Federal upper limits.

                    With changes in Medicaid reimbursement, unit of measure
                    inconsistencies may affect future Medicaid reimbursement. Because
                    AMP uses CMS’s unit of measure standards, using AMP to determine
                    appropriate pharmacy payments will require that States convert
                    reimbursement units into the NCPDP standards used in the retail
                    market.
                    Related OIG Work
                    In July 2006, OIG issued “Review of 340B Prices” (OEI-05-02-00073).
                    During that review, we found that inconsistent drug pricing data
                    produced incorrect Government ceiling prices. We identified instances
                    in which the unit of measure differed between NCPDP and CMS. OIG
                    recommended that the Health Resources and Services Administration
                    work with CMS to identify drugs for which the unit of measure is
                    captured differently by NCPDP and CMS.

                    In April 2007, the OIG report “States’ Use of New Drug Pricing Data in
                    the Medicaid Program” (OEI-03-06-00490) found that a majority of
                    States surveyed have concerns about the accuracy of AMP data received
                    from CMS. Specifically, five States described inconsistencies between
                    the AMP units reported by CMS and the typical unit definition of the
                    associated drug products. OIG recommended that CMS provide States




                    12 Testimony of Robert A. Vito, Regional Inspector General IV Evaluations and Inspections,
                    U.S. Department of Health and Human Services, before the Senate Committee on Finance
                    (June 29, 2005). Available at http://oig.hhs.gov/testimony/docs/2005/50629-vito-fin.pdf.
                    Accessed on May 23, 2007.
                    13 Section 6001(b) of the DRA.




 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM          6
I N T R O D        U C T          I O N


                    with the unit definition for drug products in AMP files distributed to
                    States.


                    METHODOLOGY
                    This study identifies drugs, by National Drug Code (NDC),14 with
                    inconsistencies between the NCPDP and CMS units of measure during
                    the first and second quarters of 2006. This review only estimates the
                    amount of inappropriate Medicaid rebate claims caused by unit of
                    measure inconsistencies. This review does not determine the amount
                    inappropriately paid because we did not determine the number of rebate
                    claims disputed by manufacturers.
                    Below we provide an overview of our methodology. For further detail,
                    see Appendix A.
                    Data Collection
                    From CMS’s Web site, we obtained Medicaid utilization data to produce
                    a list of drugs reimbursed by State Medicaid agencies during the first
                    half of 2006.15
                    From CMS, we obtained its units of measure and package sizes as well
                    as AMP and URA for the first and second quarter of 2006. Because
                    AMP and URA are calculated for the purpose of the Medicaid drug
                    rebate program, both are provided per CMS unit.

                    From First DataBank, a third-party provider of drug pricing data, we
                    obtained NCPDP units of measure and package sizes as well as product
                    descriptions and drug pricing data. We obtained pricing data per
                    package and per unit. Because pricing data from First DataBank are
                    used in the retail market, per unit pricing data supplied by First
                    DataBank are provided per NCPDP unit.

                    Further, to understand the challenges associated with detecting and
                    correcting for unit of measure inconsistencies, we interviewed CMS
                    staff. Additionally, we discussed unit of measure inconsistencies with
                    four State Medicaid drug rebate directors and a fiscal intermediary,
                    which operates Medicaid drug rebate programs for four States. We also


                    14 An NDC is a three-segment universal product identifier that specifies a drug’s 

                    manufacturer, product name, and package size. 

                    15 We included Medicaid utilization data from the District of Columbia. Additionally, we 

                    did not include Arizona in our analysis because Arizona does not participate in the Medicaid

                    drug rebate program.




 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM            7
I N T R O D        U C T          I O N


                    reviewed CMS’s “Medicaid Drug Rebate Operations Manual” and “Best
                    Practices Guide to Dispute Resolution.”
                    Data Analysis
                    We conducted our analysis in two stages. First, we compiled a list of all
                    drugs with unit of measure inconsistencies. Second, for these drugs, we
                    determined whether States reported utilization to manufacturers and
                    CMS in the correct unit of measure.
                    Determining Drugs With Unit of Measure Inconsistencies. There were
                    two scenarios that created unit of measure inconsistencies: the unit
                    types did not match (e.g., milliliter versus each) or there were different
                    interpretations of the same unit type.

                    To identify drugs for which the unit types did not match, we compared
                    the NCPDP unit of measure to the CMS unit of measure. We counted
                    drugs as having a unit of measure inconsistency when the NCPDP and
                    CMS unit types did not match.

                    To identify drugs with different interpretations of the same unit type,
                    we compared the NCPDP and CMS package sizes for drugs with the
                    same unit type. If a drug was described with the same unit of measure
                    by both NCPDP and CMS, but the package sizes were different, we
                    concluded that this inconsistency was the result of different
                    interpretations of the same unit type.

                    In cases in which we were unable to determine whether the drug had a
                    unit of measure inconsistency, we were conservative in our analysis and
                    assumed that the drug did not have a unit of measure inconsistency.
                    Determining State Conversion of Utilization Data. Because State
                    utilization data sent to CMS do not contain unit of measure
                    information, we determined whether States used the CMS unit of
                    measure for rebates by comparing the actual per unit reimbursement to
                    an estimated per unit cost in NCPDP units and an estimated per unit
                    cost in CMS units. If the actual per unit reimbursement was closer to
                    the estimate calculated with NCPDP units, we concluded that the State
                    was using NCPDP units to report utilization and did not convert its
                    utilization data. In cases in which we were unable to determine
                    whether the actual unit cost was closer to the NCPDP or CMS per unit
                    cost, we were conservative in our analysis and assumed that the State
                    converted the units.




 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   8
I N T R O D        U C T          I O N


                    Estimating Inappropriate Rebate Claims. To estimate the amount of
                    Medicaid rebates inappropriately claimed, we subtracted Medicaid
                    rebates that States should have claimed, if they converted all utilization
                    data, from rebates that States actually claimed.
                    Limitations
                    We used States’ estimated acquisition cost reimbursement formulas to
                    determine per unit reimbursement from the aggregate data. Although
                    State Medicaid reimbursement is typically based on estimated
                    acquisition cost reimbursement formulas, it may also be based on other
                    reimbursement methodologies.
                    According to CMS staff, States may request manufacturers to convert
                    utilization data to correct for unit of measure inconsistencies. Because
                    manufacturers may make these conversions after receiving rebate
                    invoices from States, they are not reflected in the utilization data
                    reported by States. However, the extent to which drugs are converted
                    by manufacturers is unknown by CMS.

                    Because of these limitations, we present all of our data as estimates.

                    For 2,231 drugs, we were unable to determine if the drug had a unit of
                    measure inconsistency because of different NCPDP and CMS definitions
                    of package size. Additionally, for 332 drugs we were unable to
                    determine if the drug had a unit of measure inconsistency because of
                    possible errors in the package size data reported to CMS. In these
                    cases, we were conservative in our analysis and assumed that the drug
                    did not have an inconsistency. As a result, our estimates of
                    inappropriately claimed Medicaid rebates may be low given our
                    conservative methodological approach.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00050    UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   9
Δ     F I N D I N G S

    Unit of measure inconsistencies resulted           Unit of measure inconsistencies, if
              in an estimated $11.8 million in         not converted, result in States
                                                       inappropriately claiming Medicaid
    inappropriately claimed Medicaid rebates
                                                       rebates. During the first two
             during the first 6 months of 2006
                                                       quarters of 2006, States
                  inappropriately overclaimed an estimated $8.1 million and
                  underclaimed an estimated $3.7 million in Medicaid rebates, for a total
                  of $11.8 million inappropriately claimed rebates.

                  Overall, the amount of inappropriately claimed rebates because of unit
                  of measure inconsistencies represents less than 1 percent of total rebate
                  claims. However, regardless of the amount, inappropriately claimed
                  Medicaid rebates can lead to incorrect Medicaid rebate payments or
                  disputes with manufacturers.

                  Interviews with four State Medicaid drug rebate directors suggested
                  that in their States, many rebate claims for drugs with unit of measure
                  inconsistencies are disputed, especially for those inconsistencies that
                  may lead to overclaiming. Overall, disputed claims can take months or
                  years to resolve, tying up valuable resources and delaying rebate
                  payments. Prior OIG work found that 15 States had inadequate dispute
                  resolution and rebate collection processes.16



Most unit of measure inconsistencies            We identified 213 drugs with unit of
          involve the unit type “each”          measure inconsistencies during the first
                                                two quarters of 2006. Of the 213 drugs,
                  193 have the CMS or NCPDP unit type “each.” Of those, 112 drugs
                  have the NCPDP unit type “each,” 52 drugs have the CMS unit type
                  “each,” and 29 drugs have both the NCPDP and CMS unit type “each.”

                  Most drugs have a mismatch between the unit types “each” and
                  milliliter or “each” and gram. A smaller percentage involves different
                  interpretations of the unit type “each.” Table 1, on the next page,
                  provides the number of drugs identified with unit of measure
                  inconsistencies by NCPDP and CMS unit type.




                  16 “Multistate Review of Medicaid Drug Rebate Programs,” A-06-03-00048. Available online
                  at http://oig.hhs.gov/oas/reports/region6/60300048.pdf. Accessed on July 5, 2007.



OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM    10
F   I N D I N G           S        





                           Table 1. Unit of Measure Inconsistencies by
                           NCPDP and CMS Unit Type
                                                                               NCPDP Unit Type
                          CMS Unit Type                                Each         Milliliter     Gram
                          Each                                           29                 47        5
                          Milliliter                                      56                8          0
                          Gram                                            48                6          6
                          Suppository                                      4                0          0
                          Transdermal Patch                                4                0          0
                        Source: OIG analysis of State Medicaid utilization data, 2007.


                              Drugs with unit of measure inconsistencies involving the unit type
                              “each” are continually added to the program. Of the 193 drugs that we
                              identified involving the unit type “each,” 87 drugs entered the market
                              between 2000 and 2006, with 25 of these new drugs in 2005 and 2006.
                              NCPDP and CMS have different guidance regarding the use of the unit type
                              “each”
                              According to NCPDP guidance, there are three unit types: each,
                              milliliter, and gram.17 The unit type “each” is used for products that are
                              not measured by volume or weight. Examples of products that must be
                              defined as “each” according to NCPDP guidance include tablets,
                              capsules, suppositories, transdermal patches, antihemophilic products,
                              kits, powder-filled vials, and powdered packets. Additionally, packages
                              with a quantity of less than one milliliter or gram should have the unit
                              type “each.” Further, according to NCPDP guidance, liquid-filled vials,
                              ampules, and syringes are not considered an “each” but rather use
                              milliliters.

                              According to CMS guidance, there are eight unit types including each,
                              milliliter, gram, transdermal patch, suppository, tablet, capsule, and
                              antihemophilic factor.18 Although CMS has five additional unit types,
                              all five would have the NCPDP unit type “each.” CMS has not issued
                              detailed guidance regarding specific use of the additional unit types.




                              17 References to NCPDP guidance cite the NCPDP “Billing Unit Standard Implementation 

                              Guide” version 2.0, released in 2004. 

                              18 “Medicaid Drug Rebate Program Quarterly Pricing Data Definitions,” Medicaid Drug

                              Rebate Operational Guide, page F7e. 




      OEI-05-07-00050         UNIT     OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM    11
F   I N D I N G        S


                      According to CMS, the unit type “each” refers to drugs not identifiable
                      by any other unit type.19 In March 2006, CMS issued Manufacturer
                      Release No. 73, which provided further guidance on use of the unit type
                      “each.”20 Within the release, CMS stated that the only product types for
                      which manufacturers should use the unit type “each” include
                      powder-filled vials, ampules, syringes, packets, and kits.

                      Even with the additional guidance in Manufacturer Release No. 73,
                      differences between NCPDP and CMS guidance on the unit type “each”
                      remain. For some product types, CMS guidance is not as specific as
                      NCPDP guidance. For example, NCPDP guidance provides specific
                      instructions for products supplied as liquid-filled vials (milliliter), while
                      CMS guidance does not. Also, NCPDP guidance provides specific
                      instructions regarding products supplied as a suppository (e.g., each
                      suppository is a unit, not the package, which can contain more than one
                      suppository), while CMS guidance does not provide any clarifying
                      instructions. For other product types, CMS and NCPDP guidance are in
                      conflict. For instance, products described as ampules or syringes have
                      the unit type milliliter according to NCPDP guidance and the unit type
                      “each” according to CMS guidance.21
                      Differences between NCPDP and CMS guidance are the result of
                      different intended uses. NCPDP uses its unit of measure standards for
                      calculating pricing data used in the retail pharmacy industry (i.e., AWP
                      and WAC). These data are provided for each drug by unique package
                      size. On the other hand, CMS uses its unit of measure standards for the
                      calculation of the AMP and the URA for the Medicaid drug rebate
                      program. The AMP and the URA must be weighted to account for all
                      sales regardless of the package size. Thus, CMS calculates the AMP
                      and the URA for each drug unit regardless of package size.

                      As a result of the required weighting for the AMP and the URA across
                      package sizes, CMS staff advises manufacturers to give careful thought
                      to the use of the unit type “each.”22 CMS further advises manufacturers
                      not to use the unit type “each” if a manufacturer has multiple package

                      19 Ibid.
                      20 “Medicaid Drug Rebate Program Bulletin for Participating Drug Manufacturers,” Release
                      Number 73. Available online at
                      http://www.cms.hhs.gov/MedicaidDrugRebateProgram/03_DrugMfrReleases.asp. Accessed on 

                      August 2, 2007.

                      21 Ibid. 

                      22 Ibid. 





    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM        12
F   I N D I N G        S


                      sizes or may launch a future package size of the drug.23 In addition,
                      manufacturers are encouraged to contact CMS in instances in which the
                      unit type “each” may seem appropriate even though the drug does not
                      fall into any of the product types CMS has designated as “each.”
                      Despite this advice, CMS states in Manufacturer Release No. 73 that
                      manufacturers continue to inaccurately report drugs as unit type
                      “each.”



     On average, States convert less than half            To deal with unit of measure
                                                          inconsistencies, States must convert
     of their utilization data for drugs with unit
                                                          utilization data from NCPDP units
                     of measure inconsistencies
                                                          to CMS units. We estimate that, on
                      average, States converted utilization data for 45 percent of drugs with
                      unit of measure inconsistencies.

                      States that reimburse for a greater number of drugs overall do not
                      convert utilization data for drugs with unit of measure inconsistencies
                      at a higher rate. There is no relationship between the number of drugs
                      reimbursed and the percentage of utilization data converted to CMS
                      units by States.

                      The rates at which States converted their utilization data for drugs that
                      lead to overclaiming and underclaiming were similar. On average,
                      States converted 43 percent of drugs with unit of measure
                      inconsistencies that would have led to overclaiming. States converted
                      46 percent, on average, of drugs with unit of measure inconsistencies
                      that would have led to underclaiming.
                      States convert a greater percentage of utilization data for drugs with larger
                      dollar value discrepancies between rebate claims
                      The larger the dollar value between rebate claims based on NCPDP
                      units and rebate claims based on CMS units, the more often States
                      convert utilization data for that drug. On average, States convert
                      18 percentage points more of the utilization data when the discrepancy
                      is greater than $100 per drug compared to when the discrepancy is less
                      than $10.




                      23 Ibid.




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   13
F   I N D I N G S


                             Table 2 provides the percentage of utilization data converted by the
                             dollar value of the discrepancy.

                      Table 2. Percentage of Utilization Data Conversions by
                      the Dollar Value of the Discrepancy
                                                                                    Average Percentage of
                      Dollar Value of the                    Number of          Utilization Data Converted
                      Discrepancy                               Drugs                         to CMS Units
                      Less than $10                                  121                             39%
                      $10 - $50                                        29                            53%
                      $50 - $100                                       21                            50%
                      Over $100                                        42                            57%
                        Total                                        213                             45%
                      Source: OIG analysis of State Medicaid utilization data, 2007.


                             States may convert a greater percentage of utilization data for drugs
                             with larger dollar value discrepancies because the unit of measure
                             inconsistencies are easier to identify for more expensive drugs.
                             According to the four State Medicaid drug rebate program directors we
                             interviewed, one method for detecting unit of measure inconsistencies is
                             to compare reimbursement amounts to rebate amounts. If a State
                             claimed a rebate amount greater than total reimbursements or if the
                             rebate amount is particularly small compared to total reimbursements,
                             a State may suspect a unit of measure inconsistency. Because these
                             comparisons are in the aggregate, identifying a unit of measure
                             inconsistency is more difficult when the dollar difference would be
                             relatively small.



     States cannot efficiently detect or correct for                 CMS package size data are
                                                                     necessary to efficiently identify
                 unit of measure inconsistencies
                                                                     drugs with unit of measure
                             inconsistencies and to appropriately convert utilization data to CMS
                             units. However, States have not received complete guidance regarding
                             how to efficiently use CMS package size data to identify and convert
                             unit of measure inconsistencies. Further, not all manufacturers
                             correctly report the CMS package size to CMS.

                             The State Medicaid drug rebate program directors we interviewed
                             suggested that because of problems with package size data, they must
                             manually identify and correct for drugs with unit of measure
                             inconsistencies. This requires them to engage in conversations with
                             manufacturers and review product prescribing information. Manually

    OEI-05-07-00050          UNIT   OF   MEASURE INCONSISTENCIES    IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   14
F   I N D I N G        S


                      identifying drugs with unit of measure inconsistencies is an inefficient
                      method given that, on average, States reimburse pharmacists for over
                      10,000 different drugs per quarter.
                      Different interpretations of package size hinder States’ ability to identify unit
                      of measure inconsistencies
                      Because NCPDP and CMS package sizes are not always comparable,
                      States cannot efficiently use package size comparisons to identify unit of
                      measure inconsistencies. Typically, unit of measure inconsistencies can
                      be identified by comparing NCPDP and CMS unit type and NCPDP and
                      CMS package size. However, identifying unit of measure
                      inconsistencies by comparing NCPDP and CMS package sizes is difficult
                      because NCPDP and CMS define package size differently. NCPDP
                      package size data are defined as the number of units in the drug’s
                      package.24 CMS package size data are defined as the number of units
                      within the smallest dispensable amount.25
                      Because of different NCPDP and CMS interpretations of package size,
                      we identified 2,231 drugs for which a package size comparison could not
                      determine whether there was a unit of measure inconsistency. For
                      these drugs, determining whether there is a unit of measure
                      inconsistency is a labor intensive process requiring an indepth look into
                      how each drug is packaged and dispensed.
                      Incomplete guidance hinders States’ ability to convert unit of measure
                      inconsistencies
                      CMS guidance on how to convert utilization data from NCPDP units to
                      CMS units once a unit of measure inconsistency is detected does not
                      account for all conversions. CMS guidance instructs States to claim
                      rebates using the CMS unit of measure, reminding States to multiply
                      the number of scripts by the CMS package size to determine total
                      utilization.26 However, this simple multiplication does not work in all
                      circumstances. There are instances in which simple multiplication will
                      result in an incorrect conversion. See Appendix C for detailed examples
                      in which simple multiplication would result in incorrect conversions. In

                      24 Definition of package size, National Drug Data File, First Bank.
                      25 “Medicaid Drug Rebate Program Quarterly Pricing Data Definitions,” Medicaid Drug
                      Rebate Operational Guide, page F7e.
                      26 “Medicaid Drug Rebate Program Letter to State Medicaid Directors,” Release
                      Number 61. Available online at
                      http://www.cms.hhs.gov/MedicaidDrugRebateProgram/02_StateReleases.asp. Accessed on August 2,
                      2007.



    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM         15
F   I N D I N G        S


                      these cases, States would need to divide or use a conversion factor
                      rather than multiplying.
                      Inaccurate reporting of the CMS package size by manufacturers may result
                      in States incorrectly converting for unit of measure inconsistencies
                      When package size is reported incorrectly, it can result in an apparent
                      discrepancy between NCPDP and CMS package sizes when no actual
                      discrepancy exits. Converting utilization data when there is not a real
                      unit of measure inconsistency may cause incorrect Medicaid rebate
                      claims and can delay rebate payments. Conversely, States may not
                      convert utilization data for drugs that do have unit of measure
                      inconsistencies because package sizes are reported as the same but are
                      in fact different.

                      For example, the package size for one drug supplied as a powder to be
                      reconstituted for injection was inaccurately reported to CMS. The drug
                      is supplied as 20 milligrams in a single dose vial and is then
                      reconstituted to 1 milliliter. The manufacturer reported the CMS unit
                      type as milliliter but incorrectly reported package size as 20 to CMS.
                      The correct CMS package size would be 1, for the 1 milliliter. In this
                      case, the manufacturer reported the number of milligrams in the vial,
                      not the number of milliliters.

                      We identified 332 drugs for which we were unable to determine whether
                      there was a unit of measure inconsistency because of possible errors in
                      the CMS package size reported by manufacturers.




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   16
R   E C O        M M E N D A T                I O N         S
Δ       R E C O M M E N D A T I O N S




                      We found that during the first two quarters of 2006, States
                      inappropriately overclaimed an estimated $8.1 million and
                      underclaimed an estimated $3.7 million in Medicaid rebates, for a total
                      of $11.8 million inappropriately claimed rebates.

                      Inappropriately claimed Medicaid rebates can lead to incorrect rebate
                      payments or disputes with manufacturers. In addition, unit of measure
                      inconsistencies have implications for future Medicaid reimbursement.
                      With DRA’s changes, CMS is using the AMP to calculate Federal upper
                      limits and States may begin using the AMP to set pharmacy
                      reimbursement in the future. Unit of measure inconsistencies may lead
                      to errors in calculating reimbursement amounts based on the AMP.

                      Through a variety of actions, such as issuing written guidance for
                      States, State Medicaid director letters, letters to manufacturers, and its
                      Dispute Resolution Program, CMS has made important strides in
                      improving the accuracy of rebate claims and reducing the number of
                      disputes. However, unit of measure inconsistencies continue to affect
                      the Medicaid prescription drug program. To reduce the potential for
                      inappropriately claimed Medicaid rebates because of unit of measure
                      inconsistencies, we recommend the following:
                      CMS should provide more specific guidance to manufacturers regarding the
                      unit type “each”
                      Because most unit of measure inconsistencies involve the unit type
                      “each,” CMS should provide more specific guidance to manufacturers
                      regarding the use of the unit type “each.” Specifically, CMS could:

                                   •	   Provide more detailed guidance for unit types where its
                                        standards are not as specific as NCPDP standards. For
                                        example, CMS could provide more detailed guidance for
                                        products described as a suppository.

                                   •	   Provide further clarification for unit types where its
                                        standards are in conflict with NCPDP standards. For
                                        example, CMS could provide more detailed guidance for
                                        products described as ampules or syringes.

                                   •	   Provide manufacturers with a detailed framework or
                                        analytic process to help them determine whether a drug
                                        should be an “each” or a different unit type. Because
                                        manufacturers are in the unique position to identify or

    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   17
R 	E C O      M M E N D A T                I O N         S


                                     prevent unit of measure inconsistencies before they occur,
                                     manufacturers should carefully consider when a drug should
                                     have the unit type “each.”

                   As CMS staff advise, it is important that manufacturers choose the
                   appropriate unit type from the beginning. As the number of drugs with
                   complex drug packaging and marketing increases, CMS should continue
                   to work with manufacturers to prevent future unit of measure
                   inconsistencies.
                   CMS should improve its guidance to States regarding detecting and
                   converting for unit of measure inconsistencies
                   With States converting the utilization data for less than half of drugs
                   with unit of measure inconsistencies, CMS should improve its guidance
                   to States regarding unit of measure inconsistencies. More specifically,
                   CMS could:

                                •	   Advise States about how to appropriately use CMS package
                                     size data to identify drugs with unit of measure
                                     inconsistencies.

                                •	   Advise States how to correctly convert utilization data. In
                                     particular, CMS could advise States about how to convert
                                     utilization data when they must be divided by the NCPDP
                                     package size or when a conversion factor must be used.

                                •	   Encourage States to make systems enhancements to better
                                     detect and correct for unit of measure inconsistencies.

                                •	   Maintain a list of drugs with unit of measure inconsistencies
                                     on its Dispute Resolution Program Web site. Updated
                                     periodically, the list could contain drugs identified by States,
                                     manufacturers, and CMS. Further, the list could contain the
                                     correct conversion factor to assist States when making
                                     conversions to utilization data. Beyond assisting States in
                                     claiming the correct rebates, the list could facilitate the use
                                     of the appropriate unit of measure with AMP data for
                                     reimbursement.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS disagreed with both recommendations. CMS does not believe
                   (1) that unit of measure inconsistencies account for significant improper


 OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   18
R   E C O        M M E N D A T                I O N         S


                      Medicaid rebate payments and (2) that the issue warrants further
                      action beyond its current approach.

                      We recognize that inappropriate Medicaid rebate claims caused by unit
                      of measure inconsistencies represent less than 1 percent of total rebate
                      claims. However, as our analysis of NCPDP and CMS data shows, unit
                      of measure inconsistencies remain a problem within the Medicaid
                      prescription drug program with an estimated $11.8 million in
                      inappropriately claimed Medicaid rebates during a 6-month period.
                      Further, the effects of unit of measure inconsistencies may grow as
                      AMP data are increasingly used for Medicaid reimbursement.
                      We support the efforts already undertaken by CMS to prevent and
                      correct for unit of measure inconsistencies. CMS has issued guidance to
                      manufacturers and States regarding the issue. However, we maintain
                      that CMS should implement the recommendations to assist
                      manufacturers and States in resolving remaining unit of measure
                      inconsistencies.
                      A detailed discussion of CMS’s specific comments is presented below.
                      The full text of CMS’s comments is presented in Appendix C.
                      Detailed Discussion of CMS’s Comments
                      Guidance to manufacturers. CMS disagreed with the recommendation
                      that it should provide more specific guidance to manufacturers
                      regarding the unit type “each.” CMS stated that it has already provided
                      guidance regarding the unit type “each” in Manufacturer Release
                      No. 73, issued March 2006, and that changes resulting from this
                      guidance were implemented subsequent to the time period we reviewed.
                      We found that even with the additional release, differences between
                      NCPDP and CMS guidance remain. We examined the unit types listed
                      on CMS’s Web site for the second quarter of 2007 for the drugs
                      identified with unit of measure inconsistencies to determine whether
                      the inconsistencies were resolved with the issuance of Manufacturer
                      Release No. 73. Of the 163 drugs for which we could compare unit
                      types, 158 had the same unit type in the second quarter of 2007 as used
                      in the analysis presented in this report. We conclude that the unit of
                      measure inconsistencies we identified in this report remain.

                      CMS also stated that it did not believe that broad guidance could
                      resolve unit of measure issues that differ on a case-by-case basis. We
                      agree that broad guidance may not be as useful as more specific
                      guidance, similar to that provided in Manufacturer Release No. 73. As


    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   19
R   E C O        M M E N D A T                I O N         S


                      such, we continue to recommend that CMS provide manufacturers more
                      specific guidance regarding the unit type “each.”

                      CMS also stated that because packaging differs from one drug to the
                      next, it is virtually impossible for CMS to develop a framework or
                      process that would effectively apply to all products. We appreciate the
                      complexity involved with selecting a CMS unit type. However, a
                      framework could be useful to ensure that manufacturers ask themselves
                      the correct questions before choosing a unit type appropriate for the
                      Medicaid rebate program. The framework could be a modified version of
                      the decision tree used by industry when selecting an NCPDP unit type.
                      In addition, for unique products, the decision tree could lead
                      manufacturers to request more case-specific guidance from CMS.

                      Guidance to States. CMS disagreed with the recommendation that
                      CMS advise States about how they could appropriately use CMS
                      package size data to identify drugs with unit of measure inconsistencies
                      and how to correctly convert these data. Additionally, CMS stated that
                      it has issued guidance to States on an individual basis and on specific
                      drugs that have widespread and significant financial impact on States.
                      We support CMS’s past efforts to provide States with guidance on unit
                      of measure inconsistencies. However, as noted in the report, drugs with
                      unit of measure inconsistencies resulting in smaller financial
                      differences in rebates are less likely to be converted by States. As such,
                      issuing guidance only for drugs that have significant financial impact on
                      States could leave other unit of measure inconsistencies unresolved. In
                      addition, we encourage CMS to be proactive in its guidance to alleviate
                      problems before they cause a significant impact.

                      CMS also disagreed with the suggestion that it could maintain a master
                      list of drugs with unit of measure inconsistencies on the Dispute
                      Resolution Program Web site. CMS indicated that it alone cannot
                      identify the drugs that have such issues and cannot offer a conversion
                      solution that would apply to all States. We agree that CMS could not
                      alone identify the drugs that have unit of measure issues. Instead, the
                      drugs could be identified by manufacturers and States.

                      The master list could be a formal process by which manufacturers
                      communicate with States regarding unit of measure inconsistencies.
                      This would provide all States with information about unit of measure
                      inconsistencies identified by other States, manufacturers, or CMS. In
                      the report, we noted how difficult it is to use CMS data to identify and
                      correct for drugs with unit of measure inconsistencies. Further, the list

    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   20
R   E C O        M M E N D A T                I O N         S


                      would also be a resource for States opting to use the AMP as part of
                      their reimbursement formulas, enabling them to avoid unit of measure
                      inconsistencies that would lead to inappropriate pharmacy
                      reimbursement.




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   21
R
A   P
    E C
      P E
        O NM DM I E X N D~ A TA I O N                       S
Δ       A P P E N D I X ~ A


                      DETAILED METHODOLOGY
                      Data Analysis
                      Determining Drugs With Unit of Measure Inconsistencies. From the
                      list of 28,091 drugs reimbursed by Medicaid during the first two
                      quarters of 2006, we eliminated 1,766 drugs that did not have the
                      National Council of Prescription Drug Program (NCPDP) and/or the
                      Centers for Medicare & Medicaid Services (CMS) unit type.

                      Additionally, we eliminated drugs with a CMS unit type of
                      antihemophilic factor (AHF), tablet (TAB), or capsule (CAP). Because
                      AHF products are made from human plasma and each vial contains a
                      unique amount of product, AHF products are unlikely to have unit of
                      measure inconsistencies. We eliminated TAB and CAP drugs because
                      they did not have unit of measure inconsistencies according to our
                      analysis. Additionally, our interviews with State Medicaid directors
                      indicated that TAB and CAP drugs do not typically have unit of
                      measure inconsistencies. We excluded 17 drugs with a CMS unit type of
                      AHF and 15,397 drugs with a CMS unit type of TAB or CAP.

                      From the remaining drugs with unit type data for comparison, we
                      divided drugs into two groups: drugs for which the CMS and NCPDP
                      unit type match and drugs for which the CMS and NCPDP unit type do
                      not match.

                      From the list of drugs for which the CMS and NCPDP unit type match,
                      we eliminated 7,361 drugs for which the package sizes were also the
                      same. In these cases in which the unit type and package size are
                      identical, there are no unit of measure inconsistencies. In addition, we
                      eliminated 2,231 drugs for which the CMS and NCPDP package sizes
                      could not be compared because of different NCPDP and CMS definitions
                      of package size.

                      From the list of drugs for which the CMS and NCPDP unit types did not
                      match, we eliminated 207 drugs for which the CMS and NCPDP
                      package sizes were the same because these inconsistencies would not
                      have a financial impact on the Medicaid prescription drug program.
                      Unit of measure inconsistencies have a financial impact on the Medicaid
                      drug rebate program if the unit of measure inconsistency leads to
                      inappropriate Medicaid rebate claims. If the NCPDP and CMS package
                      sizes are the same, then regardless of which unit of measure is used, the
                      number of units claimed would be the same.


    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   22
A P P E N D             I X            ~      A


                          Figure 3 below, illustrates the process used to identify drugs with unit
                          of measure inconsistencies.


          Figure 3. Comparison of NCPDP and CMS Unit Types

                                                         Drugs reimbursed
                                                         by Medicaid




                           Excluded drugs if no            Drugs with               Excluded drugs with
                           NCPDP and/or                    First DataBank           CMS unit type AHF,
                           CMS unit type data              data for                 TAB, or CAP
                                                           comparison



                                       CMS unit type                                 CMS unit type
                                       matches the                                   does not match
                                       NCPDP unit type                               the NCPDP unit


                                                                               Excluded drugs         Drugs with
                                                                               when the CMS           potential unit of
                                                                               and NCPDP              measure
                                                                               package sizes          inconsistencies
                                                                               matched                because of
                                                                                                      different unit
                                                                                                      types

        Excluded                  Excluded                 Drugs with potential
        drugs when                “breakable”              unit of measure
        CMS and                   packages                 inconsistencies
        NCPDP                     with CMS                 because of different
        package sizes             package                  interpretations of the
        matched                   size ‘1’                 same unit type




     Source: Office of Inspector General, 2007


                          Determining State Conversion of Utilization Data. To determine
                          whether States used the correct unit of measure for rebates, we
                          compared the actual per unit reimbursement to an estimated per unit
                          cost in CMS units and an estimated per unit cost in NCPDP units.

                          When calculating actual per unit reimbursement, we subtracted
                          dispensing fees paid from the dollars reimbursed reported in the
                          Medicaid utilization data. We obtained State Medicaid prescription
                          drug dispensing fees from CMS’s Web site.

                          To estimate the per unit cost in CMS units, we divided the average
                          wholesale price (AWP) per drug package by the CMS package size. To
                          estimate the per unit cost in NCPDP units, we used the per unit AWP

 OEI-05-07-00050          UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM               23
A   P   P E N D       I X          ~      A


                      from First DataBank. Because the per unit AWP is used in retail
                      transactions, it is based on NCPDP standards.

                      Additionally, to make the actual per unit cost and the estimated per
                      unit costs comparable, we subtracted each State’s reimbursement
                      formula discount from the estimated per unit costs. The total
                      reimbursement figures reported in the utilization data reflect the
                      discounts associated with each State’s estimated acquisition formula.
                      Therefore, the actual per unit reimbursement also reflects this discount.
                      For example, if a State reimburses pharmacies at the AWP minus
                      15 percent, then the State’s actual per unit cost would be approximately
                      15 percent below the AWP. In this example, we would have subtracted
                      15 percent from the estimated per unit costs for this State to make the
                      items comparable. We obtained each State’s reimbursement formula
                      from CMS’s Web site.




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   24
Δ         A P P E N D I X ~ B


                               DETAILED EXAMPLES REGARDING UTILIZATION DATA
                               CONVERSION
                               CMS guidance does not advise States how to convert utilization data
                               from NCPDP units into CMS units. CMS guidance only instructs States
                               to multiply the number of packages dispensed by CMS package size. 27
                               In some cases, this simple multiplication does not apply.
                               Example 1: The NCPDP package size equals the number of milliliters or
                               grams and the CMS package size equals “1”
                               The process of converting utilization data to CMS units may not be
                               straightforward when the NCPDP package size equals the number of
                               milliliters or grams and the CMS package size equals “1,” representing
                               an “each.” In this situation, to correctly convert utilization data to CMS
                               units, States must divide their utilization data by the NCPDP package
                               size. We identified 53 drugs with unit of measure inconsistencies for
                               which States would have to divide utilization data by the NCPDP
                               package size to correctly convert utilization data to CMS units. Figure
                               4 provides a theoretical example of this type of conversion.



   Figure 4. Conversion Requiring Division
                        Reimbursement                                                         Rebates
         NCPDP unit of measure standard = milliliter                               CMS unit of measure standard = each
         NCPDP package size = 5 milliliters (1 syringe)                            CMS package size = 1 each (1 syringe)

                                                 State
                                              reimburses                                 State correctly claims
  Pharmacy dispenses                         pharmacy for                                three rebates (e.g. one
   three syringes, each                      15 milliliters                              rebate for each syringe)
 with 5 milliliters, for a
  total of 15 milliliters
                             PHARMACY                   STATE MEDICAID AGENCY                                 MANUFACTURER
                                                        State Converts Utilization Data
                                                            15 milliliters ÷ 5 milliliters


Source: Office of Inspector General, 2007.




                               27 “Medicaid Drug Rebate Program Letter to State Medicaid Directors,” Release Number
                               61. Available online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/02_StateReleases.asp.
                               Accessed on August 2, 2007.



    OEI-05-07-00050            UNIT   OF   MEASURE INCONSISTENCIES     IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM           25
A   P    P E N D            I X            ~      B


                              Example 2: NCPDP and CMS package sizes equal the number of units but
                              use different units of measure
                              Converting utilization data by simply multiplying the number of
                              NCPDP units by the CMS package size would be inappropriate when
                              both the CMS and NCPDP package size represent the number of units
                              but use a different standard. To appropriately convert utilization data
                              to CMS units for these drugs, States must create a conversion factor by
                              dividing the CMS package size by the NCPDP package size. Utilization
                              data must be multiplied by the conversion factor to correctly convert
                              NCPDP units into CMS units. We identified 35 drugs with unit of
                              measure inconsistencies for which States would have to use a
                              conversion factor to appropriately convert utilization data to CMS units.
                              Figure 5 provides a theoretical example of utilization data conversions
                              when States must develop a conversion factor to appropriately convert
                              utilization data.


        Figure 5. Conversion Requiring Developing a Conversion Factor
                           Reimbursement                                                         Rebates
               NCPDP unit of measure standard = grams                            CMS unit of measure standard = milliliters 

                NCPDP package size = 3 grams (1 tube)                             CMS package size = 5 milliliters (1 tube) 

                                               State                                  State correctly

         Pharmacy dispenses 
               reimburses                                claims 15 rebates 

        three 5 milliliter tubes 
         pharmacy for                               (e.g. one rebate for

         of lotion containing
                9 grams                                 each milliliter)
        3 grams of product for
        a total of 15 milliliters                                                                           MANUFACTURER
                                  PHARMACY            STATE MEDICAID AGENCY
               or 9 grams
                                                      State Converts Utilization Data
                                                   Conversion Factor = 5 milliliters ÷ 3 grams = 1.67
                                                                  9 grams * 1.67 = 15


     Source: Office of Inspector General, 2007.




    OEI-05-07-00050           UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM                 26
Δ   A P P E N D I X ~ C


     Agency Comments




OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   27
A   P   P E N D       I X          ~      C




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   28
A   P   P E N D       I X          ~      C




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   29
A   P   P E N D       I X          ~      B
Δ       A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      This study was led by Suzanne Bailey. Other principal Office of
                      Evaluation and Inspections staff from the Chicago regional office who
                      contributed include Melissa Hafner and Mollie Hertel; central office
                      staff who contributed include Cynthia Thomas and David Graf.




    OEI-05-07-00050   UNIT   OF   MEASURE INCONSISTENCIES   IN THE   MEDICAID PRESCRIPTION DRUG PROGRAM   30
